                              Pension Benefit Guaranty Corporation
                                                               Office of Inspector General
                                                 1200 K Street, NW, Washington, DC 20005-4026


									                                                                                 July 14, 2010	
The Board of Directors
Pension Benefit Guaranty Corporation

During the six month period covered by this report, the PBGC Office of Inspector General issued
seven audit and evaluation reports with 67 recommendations for improvement. We completed
2 investigations, resolved 31 complaints, and continued investigative work on 3 cases that were
accepted for prosecution by U.S. Attorneys’ Offices during the prior semiannual period.

Recent Audit Reports. PBGC OIG has issued seven reports since our prior Semiannual Report to
Congress.

 •	 FY 2009 Financial Statements Audit Reports.  Four reports were issued in connection with our
    audit of PBGC’s annual financial statements, including (1) a report presenting the 17th consecutive
    unqualified opinion on PBGC’s general-purpose financial statements, as well as an adverse opinion
    on PBGC’s system of internal control; (2) a detailed internal control report discussing PBGC’s three
    significant deficiencies; (3) a report presenting an unqualified opinion on PBGC’s special-purpose
    financial statements that are consolidated into the Financial Report of the U.S. Government;
    and (4) a management letter report identifying less significant matters related to PBGC internal
    controls and operations.

 •	 FY 2009 Federal Information Security Management Act (FISMA) Independent Evaluation Reports.
    FISMA requires Inspectors General to conduct independent annual evaluations of agencies’
    information security programs and practices and to report the results to OMB.  During this
    semiannual period, we issued two documents detailing our work in this area – our submission to
    OMB describing the overall results of our independent evaluation of PBGC’s information security
    programs and practices and a more detailed report providing additional information on the results
    of Clifton Gunderson’s review of the PBGC information security program.

 •	 FY 2009 Vulnerability Assessment, Penetration Testing, and Social Engineering Report.  This
    restricted disclosure report detailed the results of Clifton Gunderson’s assessment of the PBGC
    information security infrastructure; this review was conducted to discover possible weaknesses
    in logical security controls and to exploit discovered vulnerabilities. The report identified major
    issues of concern and suggested that PBGC management: (1) ensure that PBGC systems have the
    most current patches and updates for all systems and (2) implement standardized procedures,
    including best practices to strengthen or harden the configuration of PBGC’s operating systems
    and applications.


Open Audit Recommendations. During the six month period, we continued to work closely with
PBGC management to address 201 open recommendations. While we were able to close only nine
recommendations during the period, PBGC did make significant progress toward developing a
strategy to address the root causes of many of the recommendations that remain open.
As part of our effort to ensure that we focus on the most important issues for PBGC, we identified
certain audit recommendations that , if implemented, would go far toward addressing
some of PBGC’s long-standing internal controls weaknesses. Implementing these
key recommendations is important for PBGC’s future effectiveness and efficiency.
Recommendations that warrant particular attention from PBGC’s management
include:

  •	 Completion of the certification and accreditation for all major applications and
     general support systems. While this recommendation, as well as others related
     to PBGC’s information security, will not be fully implemented in the near future,
     we are pleased that PBGC is beginning to actively address the serious information
     technology issues and the substantial risks they pose for PBGC’s ability to carry
     out its mission. We have recently seen concrete steps by PBGC to correct existing
     weaknesses and I am particularly encouraged by the transparency in recent
     communication between OIG and the Office of Information Technology.

  •	 Development of written guidelines for the Securities Lending Program.  We
     continue to work closely with PBGC management as guidance is being developed.
     The Corporation has been responsive to our feedback; we look forward to the
     resulting enhancements.

  •	 Creation of a single source for PBGC procurement procedures and assignment
     of responsibility for monitoring contract administration. This recommendation
     encompasses many of the other 50 open contracting-related recommendations.
     PBGC has recently committed to working with OIG to ensure that these
     outstanding recommendations are implemented fully both in letter and spirit.


For each of these recommendations, PBGC management has committed to an
approach that we believe has the potential to address the underlying issues we
reported. We appreciate PBGC’s commitment and stand ready to assist in working
through these key recommendations.

Closed Investigation. Pursuant to a Congressional request, we had opened a criminal
investigation into the former Director’s involvement during the procurement process
used to select investment managers to execute PBGC’s investment policy. This
investigation was worked at the direction of the U.S. Attorney’s Office for the Southern
District of New York.  We have notified the requesting Senators that we concluded our
investigation and that no charges were filed.

Sincerely,




Rebecca Anne Batts
Inspector General
Table of Contents
Letter to the Board of Directors


Executive Summary  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
	      The Pension Benefit Guaranty Corporation
	      The Office of Inspector General

Management Challenges
OIG’s Annual Audits of PBGC’s Financial Statements . . . . . . . . . . . . . . . . . . . . . . . 5
	      Audit of the PBGC’s Fiscal Year 2009 and 2008 Financial Statements
	      Report on Internal Control Related to the PBGC’s Fiscal Year 2009 and 2008
	            Financial Statements Audit
	      Audit of the PBGC’s Fiscal Year 2009 and 2008 Special-Purpose Financial Statements
	      Fiscal Year 2009 Financial Statements Audit Management Letter
	
OIG’s Audits and Investigations of PBGC’s Information Security . . . . . . . . . . . 11
	      FY2009 Federal Information Security Management Act (FISMA) Submission to
	            the Office of Management and Budget
	      FY2009 Vulnerability Assessment, Penetration Testing, and Social Engineering
	            Report
	      FY2009 Federal Information Security Management Act (FISMA) Independent
	            Evaluation Report
	       PBGC’s Corrective Action Plans for IT Issues
	      Protecting Sensitive and Personally Identifiable Information


PBGC and OIG Working to Address Backlog of Unimplemented Audit
Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

Congressional Request - PBGC’s Most Critical Open Recommendations . . . 17


Other OIG Reporting . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  .18
	      Access to Information
	      Management Decisions

Other Office of Inspector General Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19
	        Review of Proposed Statutory and Regulatory Changes
	        Congress Remains Concerned About Inspector General Independence
         External and Internal Professional Activities




                                                Semiannual Report Of The Inspector General—March 2010                                      iii
Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .21
	        Cross-Reference to Reporting Requirements of the Inspector General Act
	        Summary of Audit and Investigative Activities
	        Results of Reports Issued
	        Summary of Reports Older Than 6 Months for Which Management
              Decision Has Not Been Achieved
	        Previously Reported Significant Recommendations for Which Corrective
              Action Has Not Been Completed




                   IV                            PBGC Office of inspector general
Executive Summary
This Semiannual Report to Congress summarizes the activities and accomplishments
of the Pension Benefit Guaranty Corporation (PBGC) Office of Inspector General
(OIG) for the period October 1, 2009 through  March 31, 2010.  During this reporting
period, our work primarily focused in the areas of financial and information
technology:

 •	 We issued the 17th consecutive unqualified opinion on PBGC’s general purpose
    financial statements, with an adverse opinion on internal control based on 3
    significant deficiencies that, taken together, comprise a material weakness (see
    pages 6-7).
 •	 We issued a report on internal control that detailed the underlying material
    weakness: entity-wide security program planning and management; access
    controls and configuration management, and integrated financial management
    systems. A contributing factor to the material weakness was PBGC’s incorrect
    reporting about progress in correcting the deficiencies (see pages 7-10).
 •	 We also issued an audit report on the special purpose financial statements and a
    management letter discussing less significant internal control matters (see pages
    10-11).
 •	 Our information technology (IT) audit work included two FISMA reports, one
    the required OMB submission and a second narrative report with detailed
    information about additional IT security findings that were not reported in the
    internal control report (see pages 11-12).
 •	 The results of our IT vulnerability assessment and penetration testing revealed a
    number of vulnerabilities and areas of concern (see pages 12-13).
 •	 Two of our investigations and other audit work examined PBGC’s protection of
    personally identifiable information (PII), finding an instance in which a breach
    had occurred and one where it had not, controls around reporting breaches to
    US CERT which needed strengthening, and noting PBGC’s actions to address prior
    findings (see pages 14-15).

Another focus was following up on the backlog of unimplemented audit
recommendations. In response to a letter Congressman Issa (R-CA) sent to each
Inspector General, we identified the three open audit recommendations we consider
to be of critical importance: (1) completion of certification and accreditation of
all major IT applications and general support systems; (2) development of written
guidance for the Securities Lending Program, and (3) creation of a single source for
procurement procedures and assignment of responsibility for monitoring contract
administration (see pages 16-17).




                             Semiannual Report Of The Inspector General—March 2010      1
2   PBGC Office of inspector general
Introduction
                                                                                                    PBGC Board
The Pension Benefit Guaranty Corporation
                                                                                                 Responded Promply
The Pension Benefit Guaranty Corporation (PBGC or the Corporation) was established                 to Our Interim
under Title IV of the Employee Retirement Income Security Act of 1974 (ERISA),
as amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly-owned Federal                         Report
government corporation to administer the pension insurance program. ERISA requires
that PBGC: (1) encourage the continuation and maintenance of voluntary private
pension plans, (2) provide for the timely and uninterrupted payment of pension
benefits to participants and beneficiaries, and (3) maintain premiums at the lowest               PBGC insures the
level consistent with carrying out PBGC’s obligations.                                           pension benefits of

For about 44 million Americans, PBGC provides assurance that their retirement                     about 44 million
benefits will be paid, up to a statutory limit. PBGC protects the pensions of participants          Americans.
in certain defined benefit pension plans (i.e., plans that promise to pay definitely
determinable retirement benefits). Such defined benefit pension plans may be
sponsored individually or jointly by employers and unions. PBGC is now responsible
for the pensions of about 1.3 million people.

During FY 2009, PBGC managed about $70 billion in assets and paid about $4.5 billion
in benefits to almost 744,000 retirees and beneficiaries. The Corporation reports
having sufficient liquidity to meet its obligations for a number of years, despite a
cumulative deficit of $21.9 billion from the single-employer and multiemployer
programs. Neither program at present has the resources to satisfy all of the benefit
obligations already incurred, much less future obligations likely to be assumed.

PBGC’s governance structure comprises the Board of Directors, their Board
Representatives, a Presidentially-appointed Director, and Congressional oversight.
Other elements of governance include PBGC’s system of internal control, its clearly
articulated authority to act, and the policies and procedures under which PBGC
operates. PBGC governance is complex and requires those who are charged with its
oversight to view the Corporation from a number of differing perspectives. Oversight
by the PBGC Board, PBGC management and the OIG is critical to effective corporate
governance.

The Office of Inspector General
Our Office of Inspector General (OIG) was created under the 1988 amendments to the
Inspector General Act of 1978. We provide an independent and objective voice that
helps the Congress, the Board of Directors, and PBGC protect the pension benefits of
American workers. Like all Offices of Inspector General, the PBGC OIG is charged with
providing leadership and recommending policies and activities designed to prevent
and detect fraud, waste, abuse, and mismanagement; conducting and supervising
independent audits and investigations; and recommending policies to promote sound
economy, efficiency, and effectiveness.



                                  Semiannual Report Of The Inspector General—March 2010      3
                             To provide value, we focus our work on the challenges facing PBGC. We strive to target
                             the highest risk areas and emphasize timely reporting of results. We determine what we
                             will investigate and audit and how we will conduct those investigations and audits. We
                             determine our own priorities and have had our own independent legal counsel since
                             1990. Our audit and investigative staff is competent and experienced, with professional
                             backgrounds in other Offices of Inspector General, independent accounting firms, and
                             federal criminal investigative agencies. We independently respond to Congressional
                             requests and initiate contact with Congress, as warranted.

                             The OIG is in full compliance with the Quality Standards for Federal Offices of Inspector
                             General, published by the President’s Council on Integrity and Efficiency (PCIE) and
                             the Executive Council on Integrity and Efficiency (ECIE). Our audit work is performed
                             in compliance with Generally Accepted Government Auditing Standards, issued by
     PBGC Board              the Comptroller General of the United States and our investigations are performed in
 Responded Promply           compliance with PCIE and ECIE Quality Standards for Investigations.

    to Our Interim           The PBGC OIG is organizationally independent. The Inspector General reports directly
       Report                to the highest level of PBGC governance, the PBGC Board and to Congress. In executing
                             our independent oversight role, we perform a range of legally-mandated work (e.g.,
                             the annual financial statement audit and the annual Federal Information Security
                             Management Act review) as well as a body of discretionary work.
      The OIG is

  organizationally

  independent and

  reports to PBGC’s

Board of Directors and

      Congress.




                         4   PBGC Office of inspector general
Management Challenges
FY 2009 was a challenging year for Pension Benefit Guaranty Corporation (PBGC)
across all departments. In its Annual Report, PBGC reported that:

  •	 135 plan sponsors filed for bankruptcy, an increase of more than threefold over
     2008, including General Motors, Chrysler, Delphi, Lehman Brothers and Circuit
                                                                                                     PBGC Board
     City, creating cases that were extremely complicated and required large multi-
     disciplinary teams across PBGC.                                                             Responded Promply
  •	 It assumed responsibility for 129 terminated pension plans with almost 201,000                 to Our Interim
     participants – the third largest number of participants in the past 10 years.
                                                                                                        Report
  •	 It paid nearly $4.5 billion in benefits to almost 744,000 people and issued nearly
     103,000 final benefit determinations.
Though PBGC received significant assets from terminated pension plans, our audit of
the financial statements reported that PBGC has a $21.9 billion deficit to meet its long-         The investigation
term obligation, as compared with the $11.2 billion deficit reported at the close of FY          of the former PBGC
2008.
                                                                                            Director, worked under
 Between October 1, 2009 and March 31, 2010, the PBGC Office of Inspector General
                                                                                            the direction of the U.S.
(OIG) issued seven audit and evaluation reports, two reports of investigation and two
management advisories. We also initiated three new investigations, and closed 42                Attorney’s office in the
investigations and complaints.  As of March 31, 2010, we are actively working three
                                                                                                 Southern District of
criminal cases with various U. S. Attorneys’ offices. During the period, we closed our
investigation of the former PBGC Director without charges. That investigation, which            New York, was closed
had been opened in response to a bipartisan request from PBGC’s Senate oversight
                                                                                                  without charges.
committees, was worked under the direction of the Office of Public Corruption of the
U. S. Attorney’s Office in the Southern District of New York.  


OIG’s Annual Audits of PBGC’s Financial Statements
We contracted with an independent certified public accounting firm, Clifton
Gunderson LLP, to audit the financial statements of the Single-Employer and
Multiemployer Program Funds administered by  PBGC, as of and for the years
ended September 30, 2009 and 2008.  The audit was conducted in accordance with
auditing standards generally accepted in the United States of America; Government
Auditing Standards, issued by the Comptroller General of the United States; Office of
Management and Budget Bulletin No. 07 04, Audit Requirements for Federal Financial
Statements, as amended; and the Government Accountability Office / President’s
Council on Integrity and Efficiency Financial Audit Manual.

The annual financial statements audit reports include:

  •	 A report presenting the 17th consecutive unqualified opinion on PBGC’s general-
     purpose financial statements, as well as an adverse opinion on PBGC’s system of
     internal control;

                                  Semiannual Report Of The Inspector General—March 2010     5
                              •	 A detailed internal control report discussing PBGC’s three significant deficiencies
                                 which, combined, comprise a material weakness and form the basis for the adverse
                                 opinion;
                              •	 A report presenting an unqualified opinion on PBGC’s special-purpose financial
                                 statements that are consolidated into the Financial Report of the U.S. Government;
                                 and
                              •	 A management letter report identifying less significant matters related to PBGC
                                 internal controls and operations that were not deemed significant enough for
                                 inclusion in the internal control report.


                            Audit of the Pension Benefit Guaranty Corporation’s
                            Fiscal Year 2009 and 2008 Financial Statements
                            AUD-2010-1/FA-09-64-1
                            (http://oig.pbgc.gov/audit/2010/pdf/FA-09-64-1.pdf )

                            Unqualified opinion on financial statements

PBGC received its           Our audit of PBGC’s Single-Employer and Multiemployer Program
                            Funds concluded that the financial statements were presented
17th consecutive            fairly, in all material respects, in conformity with accounting principles generally
unqualified financial       accepted in the United States of America. This is the seventeenth consecutive
                            unqualified or “clean” opinion on PBGC’s financial statements.
statement audit

opinion.                    Our report included other information that is important to understanding PBGC’s
                            financial position.  By law, PBGC’s Single-Employer and Multiemployer Program Funds
                            must be self-sustaining.  However, over a long course of years, PBGC has operated in a
                            deficit position – i.e., its long-term liabilities to pay the pension benefits to participants
                            in terminated pension plans exceed its assets.  As of September 30, 2009, PBGC reported
                            net deficit positions in the Single-Employer Program Fund of $21,077 million and in the
                            Multiemployer Program Fund of $869 million.  While PBGC has been able to meet its
                            short-term benefit obligations, as noted in our audit report and discussed in Note 1 to
                            the financial statements, PBGC management believes that neither program at present
                            has the resources to fully satisfy PBGC’s long-term obligations to plan participants.

                            As an insurer, PBGC is required to estimate the loss exposure that is reasonably possible
                            as a result of unfunded vested benefits in not-yet-terminated pension plans. Our report
                            explained that PBGC estimated the loss exposure that is reasonably possible for the
                            Single-Employer and Multiemployer Programs to be $167,864 million and $326 million,
                            respectively.  For the Single-Employer Program, PBGC estimated this liability using data
                            for FYs ending in calendar year 2008 from filings and submissions to the government
                            (which was the latest available) and from corporate annual reports. This estimated
                            liability amount has not been adjusted for economic conditions through September 30,
                            2009.  As a result the exposure to loss for the Single-Employer Program as of September
                            30, 2009, could be substantially different from the estimate reported in PBGC’s financial
                            statements.




                        6   PBGC Office of inspector general
Compliance with Laws and Regulations

Our tests of PBGC’s compliance with selected laws and regulations did not disclose any
instances of reportable non-compliance.  However, because the objective of the audit
was not to provide an opinion on overall compliance with laws and regulations, no
such opinion was expressed.

Adverse Opinion on Internal Control

 We reported that PBGC had not maintained effective internal control over financial
reporting (including safeguarding assets) and compliance with laws and regulations
and its operations as of September 30, 2009.  The material weakness described below
was serious enough to result in the expression of an adverse opinion on internal
control.

Three significant deficiencies were reported, including deficiencies in PBGC’s (1)
entity-wide security program planning and management, (2) access controls and
configuration management, and (3) integrated financial management systems. The
combination of significant deficiencies in PBGC’s internal control was considered to be
a material weakness.                                                                            PBGC’s material

                                                                                              weakness resulted in
The adverse opinion on internal control was based in part, on PBGC’s incorrect
reporting about progress in addressing previously reported weaknesses noted in its            an adverse opinion on
entity-wide information security management program. PBGC’s incorrect reporting
                                                                                                internal control.
had a negative effect on PBGC’s strategic decisions and on the prioritization of
resources for resolving deficiencies in PBGC’s IT infrastructure. Since the time of
our report, PBGC has initiated efforts in the reorganization and improvement of its
security planning and management through the design and implementation of a
more coherent strategy to manage its information systems. However, these efforts are
not complete, and additional time is needed for further strategy development and
implementation.


Report on Internal Control Related to the
Pension Benefit Guaranty Corporation’s
Fiscal Year 2009 and 2008 Financial Statements Audit
AUD-2010-2/FA-09-64-2
(http://oig.pbgc.gov/audit/2010/pdf/FA-09-64-1.pdf )

As part of the annual financial statements audit discussed above, Clifton Gunderson
prepared an internal control report to provide more detailed discussions of the
specifics underlying the significant deficiencies and material weakness reported in
the internal control opinion of the combined Independent auditor’s report. PBGC’s
response to this internal control report indicated management’s agreement with
and their commitment to addressing each recommendation, and to remediating the
associated material weakness.




                                 Semiannual Report Of The Inspector General—March 2010    7
                                 The internal control report provided details about significant deficiencies in the
                                 following areas, which combined constitute a material weakness:

                                 1.  Entity-wide Security Program Planning and Management;
                                 2.  Access Controls and Configuration Management; and
                                 3.  Integrated Financial Management Systems.

                                 The combination of these three significant deficiencies constituted a material
                                 weakness in internal control.

                                   •	 Entity-wide Security Program Planning and Management – We reported that,
                                      overall, PBGC’s entity-wide security program lacked focus and a coordinated effort
                                      to adequately resolve control deficiencies. These deficiencies prevented PBGC
                                      from implementing effective security controls to protect its information from
                                      unauthorized access, modification, and disclosure.

                                     An entity-wide information security management program is the foundation of a
   Three IT-related                  security control structure and a reflection of senior management’s commitment
significant deficiencies             to addressing security risks. The security management program should establish
                                     a framework and continuous cycle of activity for assessing risk, developing and
comprise the material                implementing effective security procedures, and monitoring the effectiveness of
      weakness.                      these procedures.

                                       During FY 2009, PBGC leadership incorrectly reported progress in addressing
                                       entity-wide security management weaknesses, despite the differences between
                                       what was reported and PBGC’s own assessment of the state of its IT infrastructure
                                       and environment. PBGC’s assessment of its IT infrastructure and environment
                                       noted fundamental weaknesses in its architecture and design that prohibited
                                       the implementation of effective controls. Communication between PBGC’s key
                                       decision makers did not convey the urgent need for decisive strategic decisions
                                       and actions to correct fundamental weaknesses in PBGC’s IT infrastructure and
                                       environment. Resources were inappropriately allocated to address certain control
                                       weaknesses, even though underlying IT architecture and design issues prevented
                                       successful mitigation of these weaknesses.


                                   •	 Access Controls and Configuration Management – We reported that PBGC’s
                                      decentralized approach to system development, system deployment, and
                                      configuration management created an environment that lacked a cohesive
                                      structure in which to implement controls and best practices. Weaknesses in the
                                      IT environment contributed to deficiencies in system configuration, segregation
                                      of duties, role-based access controls, and monitoring.  Furthermore, PBGC’s
                                      information systems were overlapping and duplicative, employing obsolete and
                                      antiquated technologies that were costly to maintain.

                                     The state of PBGC’s IT environment led to increased IT staffing, manual
                                     workarounds, additional reconciliation procedures, extensive manipulation,


                           8   PBGC Office of inspector general
   and excessive manual processing.  However, these compensating controls were
   ineffective in mitigating system control weaknesses.

   Ineffective access and configuration management controls did not provide                        The incorrect
   PBGC with sufficient assurance that financial information and financial assets
                                                                                                   reporting of
   are adequately safeguarded from inadvertent or deliberate misuse, fraudulent
   use, improper disclosure, or destruction. Access controls should be in place                 progress to address
   to consistently limit, detect inappropriate access to computer resources (data,
                                                                                                  IT weaknesses
   equipment, and facilities), or monitor access to computer programs, data,
   equipment, and facilities, thereby protecting against unauthorized modification,             contributed to the
   disclosure, loss, or impairment. Configuration management and control
                                                                                                adverse opinion on
   procedures are critical to establishing an initial baseline of hardware, software, and
   firmware components and subsequently controlling and maintaining an accurate                  internal control.
   inventory of any changes to the system.


 •	 Integrated Financial Management Systems – As reported in prior year audits, the
    risk of inaccurate, inconsistent, and redundant data was increased because PBGC
    lacked a single integrated financial management system. The system could not be
    readily accessed and used by financial and program managers without extensive
    manipulation, excessive manual processing, and inefficient balancing of reports to
    reconcile disbursements, collections, and general ledger data. PBGC’s information
    systems employed unsupported technologies that posed additional risk to the
    availability of financially significant systems. Unsupported technologies added to
    the challenges of integrating PBGC’s systems in an IT infrastructure that lacked a
    cohesive architecture and design.

   Until these control weaknesses are corrected, PBGC’s ability to accurately and
   efficiently record, accumulate, and summarize information required for internal
   and external financial reporting is impacted. The agency’s ability to effectively and
   efficiently maintain and modernize its existing IT environment depends, in a large
   part, on how well it employs certain IT management controls that are embodied
   in statutory requirements, Federal guidance, and best practices.  Among other
   things, these controls include strategic planning and performance measurement,
   portfolio-based investment management, human capital management, enterprise
   architecture (and supporting segment architecture) development and use, and
   establishing responsibility and accountability for modernization management.


In their response to this report, PBGC management concurred with the audit results
and stated that they are committed to addressing the reported issues promptly.
PBGC has begun to develop an overall strategy to improve its IT architecture and
infrastructure, but much work remains before the strategy can be completed and
implemented.

Since our report was issued, PBGC provided information about its planning efforts
to achieve three desired outcomes; (1) FISMA/NIST compliant infrastructure and
applications; (2) a manageable and maintainable security program, and (3) a lower


                                  Semiannual Report Of The Inspector General—March 2010     9
                           cost, less complex information technology footprint. Additionally, PBGC officials have
                           provided their assessment that a timeframe of between three and five years would be
                           needed to achieve these objectives.

                           We have recently seen concrete steps by PBGC, such as the initiation of a new
                           Enterprise Security Corrective Action Plan (CAP) and an interagency agreement with
                           the Bureau of Public Debt to correct existing weaknesses in the agency’s Certification
                           and Accreditation process. While the planning process is not far enough along for us
                           to evaluate its potential effectiveness, we agree that the planned outcomes are critical
                           for PBGC. Success in achieving those outcomes would go far in resolving most or all of
                           the reported IT issues.

PBGC’s IT leadership       Since the issuance of our report, we have witnessed a welcome increase in
                           transparency in the communications between OIG and OIT. PBGC’s IT leadership has
 has increased the
                           been straightforward in addressing the challenges inherent in revitalizing PBGC’s
  transparency of          IT processes. Some of the challenges, like the continuous stream of new and ever-
                           changing federal requirements, are shared by all federal entities. Others are unique
communication with
                           to PBGC.  For example, PBGC still has an acting Chief Information Officer, its system
       OIG.                security expertise is still maturing, and trust-building is still a work-in-progess for OIT.


                           Audit of the Pension Benefit Guaranty Corporation’s
                           Fiscal Year 2009 and 2008 Special-Purpose Financial Statements
                           AUD-2010-3/FA-09-64-3
                           (http://oig.pbgc.gov/audit/2010/pdf/FA-09-64-3.pdf )

                           As part of the annual financial statements audit, Clifton Gunderson also audited the
                           PBGC Fiscal Year 2009 and 2008 Special-Purpose Financial Statements.  The auditors
                           concluded that the special-purpose financial statements and accompanying notes
                           presented fairly, in all material respects, the financial position of PBGC as of September
                           30, 2009 and 2008, and its net costs and changes in net position for the years then
                           ended in conformity with accounting principles generally accepted in the United
                           States of America and that the presentation was consistent with requirements of the
                           U.S. Department of the Treasury (Treasury).

                           PBGC prepares special-purpose financial statements to provide financial information
                           to the Treasury and U.S. Government Accountability Office (GAO) through the
                           Government-wide Financial Reporting System for GAO’s use in preparing and auditing
                           the Financial Report of the U.S. Government. The special purpose report is not
                           intended to be a complete presentation of PBGC’s financial statements. Rather, these
                           special purpose financial statements link PBGC’s audited financial statement to the
                           Financial Report of the United States Government.




                     10   PBGC Office of inspector general
Fiscal Year 2009 Financial Statements Audit Management Letter
AUD-2010-4/FA-09-64-4 (not publicly available)

The annual financial statements audit process led to the identification of certain less
significant matters related to PBGC internal control and operations that were not
included in the internal control report (AUD-2010-2/FA-09-64-2), discussed above.
The management letter summarized findings and recommendations regarding those
less significant matters and included the status of prior years’ management letter
recommendations.

While these management letter findings and recommendations were not material
control issues and were not material in dollar value, they are nonetheless important
because they are intended to improve PBGC’s internal control or result in other
operational improvements. These management letter findings and recommendations
address areas such as
                                                                                                    We issued a
  • payment and processing of benefit payments;                                                  management letter
  • contingency planning;                                                                        with other internal
  • accounting for premiums collected;
                                                                                                   control issues.
  • controls over IT systems; and
  • internal processing of travel, personnel actions, and vehicle usage.


In responding to the management letter, PBGC leadership agreed with most of the
recommendations and provided planned corrective actions and estimated completion
dates for those recommendations with which they agreed. PBGC management did
not agree with 10 of the 35 new recommendations. We continue to work closely
with the Corporation to reach agreement and an appropriate plan of action for the
remaining recommendations.


OIG’s Audits and Investigations of
PBGC’s Information Security
During this six-month reporting period, we issued three reports detailing the results of
our audit of IT security issues and two Management Advisory Reports (MAR) resulting
from investigation of reported potential IT security breaches. Additionally, we advised
PBGC leadership of our concerns with the Corporation’s reporting of IT security
incidents.  Ongoing audit work, as of March 31, 2010, included two additional audits
addressing specific aspects of PBGC’s information security programs.




                                    Semiannual Report Of The Inspector General—March 2010   11
                            FY 2009 Federal Information Security Management Act (FISMA)
                            Submission to the Office of Management and Budget
                            LTR-2010-5/FA-09-64-5
                            (http://oig.pbgc.gov/audit/2010/pdf/fisma.pdf )

                            The Federal Information Security Management Act (FISMA) requires federal entities
 Our vulnerability          to report annually to the Office of Management and Budget (OMB) the state of their
                            information security. FISMA also requires Inspectors General to conduct independent
 assessment and
                            annual evaluations of agencies’ security programs and practices and to report the
penetration testing         results to OMB.  In conjunction with the financial statement audit, we contracted with
                            Clifton Gunderson to perform, under OIG oversight, an independent evaluation to
 found a number
                            assess the effectiveness of PBGC’s information security program and practices and
 of unremediated            to determine compliance with the requirements of FISMA and related information
                            security policies, procedures, standards, and guidelines.
   weaknesses.
                            We reported deficiencies in PBGC’s security management, access controls,
                            configuration management, and segregation of duties. Control deficiencies were
                            also found in policy administration and the Certification and Accreditation (C&A) of
                            major applications and general support systems. Overall, PBGC needs to develop
                            and implement a framework to improve its security posture, and this framework
                            will require time for effective control processes to mature. The scope of this work
                            was broader than the work done as part of our annual financial statements audit,
                            because this evaluation addressed each of PBGC’s major IT systems, not just those that
                            supported the preparation of PBGC’s financial statements. Based on the results of the
                            review, the same types of issues that affected PBGC’s financial systems also impacted
                            its other critical IT systems.


                            Fiscal Year 2009 Vulnerability Assessment,
                            Penetration Testing, and Social Engineering Report
                            EVAL-2010-6/FA-09-64-6
                            (http://oig.pbgc.gov/audit/2010/pdf/FA-09-64-6.pdf )

                            We contracted with Clifton Gunderson, LLP to assess PBGC’s information security
                            infrastructure to discover possible weaknesses in logical security controls. This work
                            differed from other engagements, in that we attempted to exploit the discovered
                            vulnerabilities so that we could learn the degree of control PBGC could expect
                            an attacker to achieve after a successful penetration. During our assessment, we
                            discovered live hosts residing on external and internal PBGC networks and conducted
                            overt and covert vulnerability assessments on IP addresses in use.

                            The assessment revealed a number of vulnerabilities and areas of concern. As a result
                            of our findings, we recommended that PBGC management:

                              •	 Ensure that PBGC systems have the most current patches and updates for all
                                 systems; and




                      12   PBGC Office of inspector general
  •	 Implement standardized procedures, including best practices to strengthen or
     harden the configuration of PBGC’s operating systems and applications.



Fiscal Year 2009 Federal Information Security
Management Act (FISMA) Independent Evaluation Report
EVAL-2010-7/FA-09-64-7
http://oig.pbgc.gov/audit/2010/pdf/FA-09-64-7.pdf )

As a result of FISMA audit work, we issued a report to provide detailed information
on the results of our review of PBGC’s information security program. Our evaluation
showed that PBGC has not established an effective information security program. The
report’s 6 FISMA findings and 12 associated recommendations supplemented, but
did not duplicate the IT security findings and recommendations already presented
in other audit reports.  For example, although the internal control report, discussed
above, includes 15 FISMA-related findings with 36 recommendations, those
recommendations were not repeated in this report.

PBGC management’s response to this report indicated general agreement with all
recommendations and provided specific responses for each recommendation. Where
appropriate, PBGC is considering findings and recommendations relating to the FISMA
report as part of the comprehensive IT corrective action plan.


PBGC’s Corrective Action Plans for IT Issues
                                                                                                PBGC reported on a
During this six month period, PBGC’s Acting Chief Information Officer (CIO) and                 comprehensive IT
senior IT leaders created a team to consider how to address the range of IT issues
systemically. Rather than considering each finding and recommendation in isolation,              corrective action
the team compared PBGC’s IT infrastructure to the standards established in NIST                 plan with a 3-5 year
800-53 Rev 3,  using  our OIG’s audit reports, and PBGC’s own internal assessment of
IT controls as part of the review. The Acting CIO and IT department directors briefed                horizon.
us regularly about the process and progress of the team.  From this inclusive and
disciplined approach, the team developed a plan that grouped processes into 14
“process families.”  The plan identified inputs, outputs and applicable 800-53 controls,
and mapped to the findings and recommendations in the various OIG reports. The
team prioritized the process families and created 14 individual corrective action plans.
Based on the corrective actions plans, PBGC estimates it will take three to five years
to achieve the desired outcome. Since the IT weaknesses developed over the course
of many years, the established timeframe appears to be reasonable. OIT’s recent
efforts to keep OIG fully informed are helping us to better assess the efficiency and
effectiveness of the steps being taken by PBGC to correct existing IT issues. We look
forward to working with PBGC as it establishes an IT environment that is secure and in
compliance with all applicable standards.




                                  Semiannual Report Of The Inspector General—March 2010    13
                         Protecting Sensitive and Personally Identifiable Information (PII)

                         During the six-month reporting period, PBGC OIG has dedicated significant resources
                         to ensuring that PBGC protects the sensitive information and PII with which it has been
We focused audit and     entrusted. PII maintained by PBGC includes plan participants’ names, social security
                         numbers, birthdates, addresses, and bank account numbers.  Further, PBGC maintains
 investigative work
                         sensitive financial and investment information that should also be carefully protected
on PBGC’s handling       from inadvertent loss or disclosure.

   of personally         One of the greatest risks associated with PII is the loss of control of the information,
    identifiable         whether by inadvertently sending the information to the wrong party, loss or theft
                         of media containing the information, or a network infiltration, any one of which may
    information.         result in a privacy breach. Such a breach could also place plan participants at risk of
                         identity theft. Additionally, loss of PII can result in significant political, reputation and
                         financial risks for the Corporation.  Examples of the kinds of threats addressed by OIG
                         during this reporting period include:

                           •	 PBGC Information Security Specialist recommended using a commercial copy
                              center to transfer PII, in violation of PBGC policies and procedures. When a PBGC
                              employee received a thumb drive containing participant data with 2,217 names
                              and unique identifiers, the employee consulted both an Information Security
                              Specialist and the PBGC Information Systems Security Officer to find out how to
                              access the data safely. The PBGC Information Security Specialist suggested that
                              the PBGC employee “take it to Kinkos to have it scanned for viruses and copied to a
                              CD.”  Following this incorrect advice, the PBGC employee used a commercial kiosk
                              to transfer the data, thereby creating a security breach and potential compromise
                              of PII.

                             OIG investigators responded to the security breach by conducting a forensic
                             analysis of the thumb drive to determine what type of participant data it
                             contained. Kinko’s management refused a consensual search of the kiosk used
                             by the PBGC employee; thus we were prevented from determining whether any
                             usable data was captured by the hard drive when the data was transferred. Our
                             inspection of the machine showed that it did not have an attached keyboard, but
                             did contain connection ports for media storage devices. The security breach was
                             reported to the United States Computer Emergency Readiness Team (U. S. CERT)
                             and OIG issued a MAR suggesting specific improvements to reduce the likelihood
                             of similar breaches in the future.

                           •	 PBGC Local Area Network (LAN) administrators were unaware of the location
                              of a hard drive used to back up Office of General Counsel data. When an onsite
                              LAN administrator reported that a hard drive was missing from a server array,  an
                              OIG investigator traveled to Wilmington, Delaware, evaluated the situation and
                              ultimately located the missing drive in a box along a wall in the server room. While
                              this incident did not result in a security breach, troubling aspects that demonstrate
                              the threat to the security of sensitive information include the fact that the array
                              had been offline for several weeks before PBGC IT staff identified the situation


                   14   PBGC Office of inspector general
  and the fact that the LAN administrator did not know how long the drive had
  been missing.  Further, despite physical security controls including an electronic
  swipe pad and a key-controlled locking handle, IT staff were unable to determine
  who had actually removed the hard drive from the array.  OIG issued a MAR
  suggesting needed improvements, such as the need to keep drives in a controlled
  environment, when not installed in servers.

•	 OIG continued following up on PBGC actions to protect PII held by contract
   actuaries. In prior semiannual reports, OIG described the loss of a thumb drive
   containing PII and the actions that PBGC took in response to the loss. During this
   reporting period, PBGC developed and began implementation of a compliance
   plan to establish contractors’ compliance with the Memoranda of Understanding
   that provide guidance about the protection of PBGC data. The plan involves
   quarterly site visits and onsite verification of required corrective actions. OIG
   continues to monitor the implementation of the compliance plan and work with
   PBGC to ensure protection of sensitive information.

•	 Ongoing audit work addresses the security of PII maintained in the Actuarial
   Calculation Toolkit (ACT). We are currently conducting an audit of PBGC’s ACT
   application, the agency’s primary system for calculating a participant’s benefit.
   ACT contains PII for 1.3 million participants. This audit was initiated from a
   whistleblower complaint related to the security of participants’ PII. OIG was asked
   to determine if participant data was being transferred to an unsecured application,
   ACT,  that was non-compliant with the Federal Information Security Management
   Act (FISMA).  We are currently determining if the whistleblower complaint has
   merit; we expect to issue a report of our results to PBGC during the next semi-
   annual period.
                                                                                              PBGC responded
•	 OIG identified unreported security breaches. During the FISMA review, we became
   aware that PBGC’s reporting of IT security incidents to United States - Computer            quickly when
   Emergency Readiness Team (US-CERT) was not accurate and complete.  As a result,
                                                                                                we identified
   we reviewed PBGC’s “Breach Spreadsheet FY 08-09” and “US-CERT Operations
   Incident & Event Summary.”  The Breach Spreadsheet is PBGC’s internal record of            weaknesses in its
   all US-CERT reported incidents, including:  date, department, number of affected
                                                                                               reporting of IT
   individuals, description of breach, whether the breach had been reported to
   US-CERT, and resolution.  The US-CERT Operations Incident & Event Summary is           security breaches to
   a report, based on an agency’s reported security incidents, intended to provide
   an overview of the incident and event trends observed by US-CERT that impact                   US-CERT.
   PBGC.  OIG reconciled the PBGC prepared Breach Spreadsheet FY 08-09 to the
   US-CERT Operations Incident & Event Summary.  We identified 6 incidents that
   PBGC believed had been reported to US-CERT, but did not appear in the US-
   CERT Summary.  On December 16, 2009, OIG met with PBGC officials to discuss
   our findings. Upon further review, PBGC concurred that 5 out of the 6 incidents
   identified by OIG had not actually been reported to US-CERT, as agency officials
   had incorrectly believed.  As a result of our inquiry, PBGC reported to US-CERT the
   security breach incidents identified by OIG.




                                Semiannual Report Of The Inspector General—March 2010    15
                             •	 PBGC has committed to making the Corporation a model for handling sensitive
                                information.  In March 2010, we reported that PBGC’s Privacy Office did not
                                properly monitor its privacy processes for quality and compliance.  Further, PBGC’s
                                process for reporting PII events was inaccurate and unverifiable and technical
                                controls (e.g., encryption of laptop computers) required strengthening. The
                                Corporation took immediate measures to begin addressing reported concerns.
                                Some actions directly addressed OIG’s recommendations; for example, specific
                                guidance and procedures have been developed for privacy staff to follow in
                                reporting security incidents involving PII disclosure to U.S. CERT.  To their credit,
                                PBGC’s actions were not limited to the specific recommendations included in OIG’s
                                report. PBGC has begun reexamining its privacy program and is surveying other
                                federal agencies to identify best practices, with the stated intention of making
                                PBGC a model for handling sensitive information. While it is too early to determine
                                how successful PBGC’s efforts will be, the Corporation’s positive reaction to OIG’s
                                findings increases the likelihood that PBGC will be able to properly protect the PII
                                and other sensitive information with which it has been entrusted.



 PBGC has a record         PBGC and OIG Working to Address Backlog of
number of open audit
                           Unimplemented Audit Recommendations
 recommendations.
                           As of March 31, 2010, a total of 201 audit recommendations remain open in the
                           following areas.




                           Of the 201 recommendations, 134 have been open more than 6 months and about
                           40% of the recommendations have been open for 2 or more years. The following
                           chart shows the distribution of recommendations by topic.




                     16   PBGC Office of inspector general
Our audit recommendations address a range of issues, from the most serious problem
affecting PBGC to relatively minor compliance issues.  Forty-eight of the unimplemented
recommendations deal with contracting and procurement issues. We have begun
working with PBGC to develop a more effective approach to manage Contracting
Officer’s Technical Representatives (COTR) to achieve positive contract outcomes.

We are working closely with PBGC to emphasize the importance of implementing open
audit recommendations.  OMB Circular A-50 notes that “Corrective action taken by
management on resolved findings and recommendations is essential to improving the
effectiveness and efficiency of government operations.”


Congressional Request – PBGC’s Most Critical Open
Recommendations
Representative Darrell Issa (R - CA) wrote to each member of the Inspector General
community requesting a report on the number of open audit recommendations and the                    In response to a
agency’s progress in closing recommendations since a prior request in January 2009.  
                                                                                               Congressional request,
We were also asked to identify three open audit recommendations that we consider
to be of critical importance for our agencies. Implementation of the following key              we identified PBGC’S
recommendations is important to the future success of PBGC.
                                                                                                    most critical open

 •   PBGC should complete the certification and accreditation for all major IT                      recommendations.
     applications and general support systems. While this recommendation, as well as
     others related to PBGC’s information security, will not be fully implemented in the
     near future, PBGC has begun to actively address serious information technology
     issues and the substantial risks they pose for PBGC’s ability to carry out its mission.
     PBGC has recently taken important first steps toward correcting existing weaknesses.
     We have been encouraged by the transparency in recent communication between
     OIG and PBGC’s Office of Information Technology.




                                    Semiannual Report Of The Inspector General—March 2010      17
         •	 PBGC should develop written guidelines for the Securities Lending Program.  
            We continue to work closely with PBGC management as this important
            guidance is being developed. The Corporation has been responsive to our
            feedback; we look forward to the resulting enhancements.


         •	 PBGC should create a single source for PBGC procurement procedures
            and assign responsibility for monitoring contract administration. This
            recommendation encompasses many of the other open contracting-related
            recommendations. PBGC has recently committed to working with OIG to
            ensure that these outstanding recommendations are implemented fully both
            in letter and spirit. We appreciate this commitment and stand ready to assist
            in working through the backlog of procurement recommendations.


       Other OIG Reporting
       Access to Information

       Under the Inspector General Act, the Inspector General is to have unfettered
       access to all agency records, information, or assistance when engaged in an
       investigation or audit. Whenever access to requested records, information, or
       assistance is unreasonably refused or not provided, the Inspector General must
       promptly report the denial to the agency head. We have not been denied access
       nor has assistance been unreasonably refused during this reporting period.


       Management Decisions

       The Inspector General is required to report the following about management
       decisions on audit reports that occurred during this six-month period:

         •   There are 9 audit reports for which management decisions are pending (see
             Appendix, pages 24-25).
         •   There were no significantly revised management decisions.
         •   There were no management decisions with which the Inspector General did
             not agree.




18   PBGC Office of inspector general
Other Office of Inspector
General Activities
Review of Proposed Statutory and Regulatory Changes
A major responsibility of the OIG under the Inspector General Act is the independent
review of PBGC-proposed changes to laws and regulations. There were no significant
PBGC statutory proposals this period, and OIG did not review any new proposed
regulations.


Congress Remains Concerned About Inspector General
Independence
The OIG continued to communicate with Congress about Inspector General
independence and proposals to change the appointment process of the Inspectors
General at five independent federal entities from agency-head appointed to
Presidentially-appointed and Senate-confirmed. PBGC was one of the five agencies
named in the bill, along with the Board of Governors of the Federal Reserve,
Commodities Futures Trading Commission, National Credit Union Administration, and
the Securities and Exchange Commission.  In bills for comprehensive financial reform,
both the House and Senate included provisions to make these five Inspectors General
subject to presidential-appointment. Rather than focusing on these five Inspectors
General, an amendment to the Senate financial reform bill proposes that each Inspector
General at a designated federal entity report to the entity’s full Board or Commission if
such exists.

                                                                                                  We issued a fixed-
We continue to meet with Congressional staff to develop proposals to positively impact
Inspector General independence.                                                                  price contract to an

Other Activities                                                                                 independent public

                                                                                                 accounting firm to
Competitive Procurement for Financial Statement Audit
                                                                                             conduct the financial

The OIG conducted a full and open competition to obtain an independent public                     statement audits,
accounting (IPA) firm to perform the annual audit of PBGC’s financial statements. As
                                                                                                 information security
part of the financial statement audit work, we require an opinion on internal control,
a management letter to report internal control issues of lesser significance, work to             testing and FISMA
test and report on compliance with the Federal Information Security Management Act
                                                                                                        work.
(FISMA) requirement, and an information technology vulnerability assessment and
penetration testing.

As a result of the competition, we awarded a fixed-price contract to Clifton Gunderson
LLP for a base year plus four option years.



                                   Semiannual Report Of The Inspector General—March 2010    19
                          External and Internal Professional Activities

                          Various staff members participated in external and internal professional activities.
                          Examples include:

                            •  The IG participates in the Council of Inspectors General for Integrity and Efficiency
                               (CIGIE) that promotes collaboration on integrity, economy, and efficiency issues
                               that transcend individual agencies.  Ms. Batts serves as the co-chair of the CIGIE
                               Information Technology Committee and as a member of the Audit Committee.
We encourage OIG               She also serves as the CIGIE delegate to the Chief Financial Officer’s Council.  In the
                               Federal Financial Regulatory Inspectors General group, she joins with other IGs to
  staff members
                               discuss common financial concerns and the work each is doing.
 to participate in          •	 The Assistant IG for Audits serves on  the Accounting and Audit Policy Committee
external activities.           (AAPC) which  is a permanent committee established by the Federal Accounting
                               Standards Advisory Board. Federal accounting standards and financial reporting
                               play a major role in fulfilling the government’s duty to be publicly accountable. The
                               AAPC issues technical releases related to existing Federal accounting standards.
                               AAPC’s technical releases are a form of authoritative guidance for generally
                               accepted accounting principles for Federal entities. During this period, the AAPC
                               issued Technical Release (TR) 10 Implementation Guidance on Asbestos Cleanup
                               Costs Associated with Facilities and Installed Equipment and TR 11 Implementation
                               Guidance on Cleanup Costs Associated with Equipment.
                            •	 The IG and the Assistant IG for Audit participated in a roundtable at the AAPC to
                               provide views on the use of generally accepted accounting principles (GAAP) as
                               used by the public sector.
                            •	 The Assistant IG for Investigations continues to serve as a non-voting member
                               of PBGC’s Internal Control Committee, providing insight gained through his
                               experience as a criminal investigator to those responsible for oversight and
                               accountability of PBGC internal controls. Effective control systems may detect fraud
                               or deliberate non-compliance with policies, regulations, or laws.
                            •	 The Special Agent-in-Charge participates in the National Procurement Fraud Task
                               Force sponsored by the U.S. Department of Justice.
                            •	 The IG and the Deputy IG  are mentoring non-OIG staff as part of PBGC’s
                               intentional mentoring programs.
                            •	 One of our senior auditors attends the Interagency Fraud and Risk Data Mining
                               Group (IFRDMG) quarterly meeting and training sessions.  IFRDMG meets to
                               share information amongst OIGs concerning the latest data analysis techniques,
                               accomplishments using data analytics, recommended data mining software and
                               related training.




                     20   PBGC Office of inspector general
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector General Act of 1978, as
amended, to the specific pages in the report where they are addressed.

Inspector General
Act Reference	         Reporting Requirements	                              Page
Section 4(a)(2)	       Review of legislation and regulations.	              19
Section 5(a)(1)	       Significant problems, abuses, and deficiencies.	     5-17
Section 5(a)(2)	       Recommendations with respect to significant 	        5-17
	                      problems, abuses, and deficiencies.	
Section 5(a)(3)	       Prior significant recommendations on which	          16-17
	                      corrective action has not been completed.	
Section 5(a)(4)	       Matters referred to prosecutorial authorities.	      22
Section 5(a)(5)	       Summary of instances in which information 	          18
	                      was refused.	
Section 5(a)(6)	       List of audit reports by subject matter, showing 	 23
	                      dollar value of questioned costs and
	                      recommendations that funds be put to better use.	
Section 5(a)(7)	       Summary of each particularly significant report. 	   5-18
Section 5(a)(8)	       Statistical table showing number of reports and 	    23
	                      dollar value of questioned costs.	
Section 5(a)(9)	       Statistical table showing number of reports and 	    23
	                      dollar value of recommendations that funds be
	                      put to better use.	
Section 5(a)(10)	      Summary of each audit report issued before this 	 24-25
	                      reporting period for which no management
	                      decision was made by end of the reporting period.	
Section 5(a)(11)	      Significant revised management decisions.	           18
Section 5(a)(12)	      Significant management decisions with which 	        18
	                      the Inspector General disagrees.	
		




                                                 Semiannual Report Of The Inspector General—March 2010     21
SUMMARY OF AUDIT AND INVESTIGATIVE ACTIVITIES
For the Six-Month Period Ending March 31, 2010

Audit Reports Issued
	   Number of Reports	                                             7
	   Number of Recommendations	                                    67
Management Decisions
	   Open Recommendations Beginning of Period	                    143
	   Opened this Period	                                           67
	   Closed This Period	                                            9
	   Open Recommendations End of Period	                          201
	   Reports with Open Recommendations End of Period	              40
Investigations
	   Pending Beginning of Period	                                  15
	   Opened	                                                        3
	   Closed	                                                       11
	   Pending End of Period	                                         7
Complaints1
	  Pending Beginning of Period	                                    7
	  Opened	                                                        33
	  Closed	                                                        31
	  Pending End of Period	                                          9
Financial Recoveries2
	   Theft of Funds Recovered	                                    $0
	   Court Ordered Fines, Penalties, and Restitution	         $2,100
	   U.S. Government Property Recovered	                          $0
Criminal Actions2
	   Arrests	                                                       0
	   Indictments	                                                   1
	   Convictions	                                                   1

Administrative Actions2	                                           0
	

Referrals
	   For Prosecution:
		 Department of Justice	                                          0
	   Various States’ Attorney Offices	                              1
		         Declined	                                               1
	   For Other Action:
	   	     PBGC Management for Corrective Action	                   2
     1
      Complaints include allegations received through the hotline operation and issues resulting from proactive
       investigative efforts.
     2
      Results reported for Financial Recoveries, Criminal, and Administrative Actions include both open and closed cases.




                     22         PBGC Office of inspector general
RESULTS OF REPORTS ISSUED
For the Six-Month Period Ending March 31, 2010
                                                            Number         Questioned    Unsupported     Funds Put to
                                                           of Reports            Costs      Costs         Better Use
 A.  For which no management decision had                         10         $686,960               $0             $0
     been made by the commencement of the
     reporting period.
 B. Which were issued during the reporting period.                 7
      Audit of the Pension Benefit Guaranty                                        $0               $0             $0
        Corporation’s Fiscal Year 2009 and 2008
        Financial Statements (11/12/09)
      Report on Internal Control Related to the                                    $0               $0             $0
        Pension Benefit Guaranty Corporation’s Fiscal
        Year 2009 and 2008 Financial Statements
        Audit (11/12/09)
      Audit of the Pension Benefit Guaranty                                        $0               $0             $0
        Corporation’s Fiscal Year 2009 and 2008
        Special-Purpose Financial Statements
        (11/16/09)
                                                                                   $0               $0             $0
      FY 2009 Federal Information Security
         Management Act (FISMA)Submission to
         the Office of Management and Budget
         (11/18/09)
      Fiscal Year 2009 Financial Statements Audit
         Management Letter (2/23/10)
      Fiscal Year 2009 Vulnerability Assessment,
         Penetration Testing, and Social Engineering
         Report (3/2/10)
      Fiscal Year 2009 Federal Information Security
         Management Act (FISMA) Independent
         Evaluation Report 3/22/10)
 Total                                                             7

        Subtotal (Add A. & B.)                                    17         $686,960               $0             $0

 C.  For which a management decision was made                      7         $245,716               $0             $0
     during the reporting period.

        (i) dollar value of disallowed costs                                 $176,833               $0             $0

        (ii) dollar value of costs not disallowed                             $68,833               $0             $0

 D.  For which no management decision had been                    10         $441.244               $0             $0
    made by the end of the reporting period.
 E.	 For which no management decision was made                    10         $441,244               $0             $0
     within six months of issuance.
 1
     Unsupported costs are a subset of questioned costs.
                                                      Semiannual Report Of The Inspector General—March 2010       23
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED

                                                                                                  Anticipated
 Report and Summary                                      Reason For No Management Decision        Management
                                                                                                   Decision
 FY 2004 Financial Statement Management Letter,          This report was re-opened on August       9/30/2010
   2005-10/ 23182-6 (3/21/05)                            21, 2009, based on OIG’s discovery
                                                         that PBGC had incorrectly reported the
                                                         establishment of Standard Operating
Establish and document detailed policies and             Procedures that implemented OIG
procedures regarding deobligation of funds.              recommendations.

 Procurement Activities Related to Award of                                                        7/30/2010
   Morneau Sobeco Contracts, 2005-18/CA-0008-1           This report was re-opened on August
   (9/29/05)                                             21, 2009, based on OIG’s discovery
                                                         that PBGC had incorrectly reported the
Establish and document detailed policies and             establishment of Standard Operating
procedures for procurement activities, including         Procedures that implemented OIG
duties of Contracting Officer, Contract Specialist and   recommendations.
Competition Advocate..

 Costs Claimed by Morneau Sobeco, 2005-19/                                                        8/30/2010
   CA-0008-2 (9/29/05)                                   This report was re-opened on August
                                                         21, 2009, based on OIG’s discovery
COTR should document actions, including invoice          that PBGC had incorrectly reported the
review and acceptance of deliverables, and ensure        establishment of Standard Operating
contractor complies with contract requirements.          Procedures that implemented OIG
                                                         recommendations.


 Procurement Cycle Performance Audit, 2006-9/            This report was re-opened on August       8/30/2010
   CA-0010 (3/16/06)                                     21, 2009, based on OIG’s discovery
                                                         that PBGC had incorrectly reported the
Establish and document detailed policies and             establishment of Standard Operating
procedures of procurement activities.                    Procedures that implemented OIG
                                                         recommendations.

 Examination of Contract Termination Proposal,           Management continues to review this       8/30/2010
   2006-14/CA-0013 (9/29/06)                             report.


Questioned Costs of $197,035 because the contractor
did not effectively manage its employees and allowed
idle time to be billed as a direct expense.




                      24     PBGC Office of inspector general
SUMMARY OF REPORTS OLDER THAN SIX MONTHS FOR WHICH
MANAGEMENT DECISION HAS NOT BEEN ACHIEVED

                                                                                                Anticipated
 Report and Summary                                     Reason For No Management Decision       Management
                                                                                                 Decision
 Incurred Cost Audit, 2006-16/CA-0013 (9/27/06)         Management continues to review this      8/30/2010
                                                        report.
Questioned Costs of $146,628 for unallowable
costs associated with the use of the actual indirect
rates instead of the forward pricing indirect rates;
unallowable facility costs; and unsupported purchased
labor costs.

 Incurred Cost Audit, 2007-13/CA-0038-1 (9/27/07)       Management continues to review            6/30/2010
     and                                                these reports involving the same
                                                        contractor.
 Incurred Cost Audit, 2007-14/CA-0038-2 (9/27/07)


Implementation of corrective actions with contractor
needed to prevent unsupported and erroneous
documentation for labor hour billings; erroneous and
unapproved billings; and unverified education and
experience for contractor employees.

 Incurred Cost Audit, 2008-09/CA-0054 (9/30/2008)       Management decision is pending            8/30/2010
                                                        as it awaits DCAA’s completion of its
                                                        incurred cost audit and settlement of
Questioned Costs of $97,581 for unallowable costs       indirect cost rates.
associated with the use of unaudited indirect cost
rates.




                                                 Semiannual Report Of The Inspector General—March 2010        25
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                                      Number of
Report Number, Report Title and                                Significant Problems Summary of Significant
                                      Significant
Date Issued                                                    and Deficiencies     Recommendations
                                      Recommendations
96-4/23093-2                                                   Significant             PBGC needs to complete the
Audit of the Pension Benefit                                   Deficiency:             integration of its financial
Guaranty Corporation’s Fiscal                                  Integrating             management systems.
Year 1995 Financial Statements                                 Financial
03/13/1996                                                     Management
and                                                            Systems
                                               1
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on
Internal Control - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007

2003-3/23168-2                                                 Signficant              PBGC needs to complete its
Audit of the Pension Benefit                                   Deficiency:             efforts to fully implement
Guaranty Corporation’s Fiscal Years                            Entity-Wide             and enforce an effective
2002 - 2001 Financial Statements                               Information             information security program.
01/30/2003                                                     Security Program
     and                                                       Planning &
                                               2
AUD-2008-2/ FA-09-0034-2                                       Management
Limited Disclosure Report on
Internal Control - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007

2003-10/23177-2                                                Control weaknesses      PBGC needs to ensure that its
Review of PBGC’s Premium                                       undermine the           automated system produces
Accounting System                                              quality and integrity   accurate and verifiable
                                               3
10/10/2003                                                     of reported             premium accounting data.
                                                               premium revenues.

2008-1/FA-0034-1                                               Significant             PBGC needs to mitigate the
Audit of the Pension Benefit                                   Deficiency:             systemic issues related to
Guaranty Corporation’s Fiscal Years                            Access Contols          information access controls.
2007 - 2006 Financial Statements
11/15/2007
      and
                                               11
AUD-2008-2/ FA-09-0034-2
Limited Disclosure Report on
Internal Control - PBGC’s FY 2007
and 2006 Financial Statements Audit
11/15/2007



                    26      PBGC Office of inspector general
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

                                        Number of
Report Number, Report Title and                                Significant Problems Summary of Significant
                                        Significant
Date Issued                                                    and Deficiencies     Recommendations
                                        Recommendations
AUD-2009-01/FA-08-49-1                                         Significant            PBGC needs to complete the
Audit of the Pension Benefit                                   Deficiency:            design, implementation and
Guaranty Corporation’s Fiscal Years                            Entity-Wide            testing of security controls,
2008 and 2007 Financial Statements                             Information Security   implement an effective
11/13/2008                                                     Program & Planning     certification and review
    and                                           5            Management             process, and correct identified
AUD-2009-02/FA-08-49-2                                                                access control vulnerabilities.
Limited Disclosure Report on
Internal Controls – PBGC’s FY 2008
and 2007 Financial Statements
11/13/09




This chart complies with Section 5(a)(1), (2) and (3) of the Inspector General Act of 1978, as amended.




                                                 Semiannual Report Of The Inspector General—March 2010           27
